         Written Testimony of H. David Kotz
               Inspector General of the
         Securities and Exchange Commission




Before the Oversight and Investigations Subcommittee of
          the Committee on Financial Services,
              U.S. House of Representatives

                 Friday May 13, 2011
                      10:00 a.m.
                                      Introduction

       Thank you for the opportunity to testify before this Committee on the subject of

“The Stanford Ponzi Scheme: Lessons for Protecting Investors from the Next Securities

Fraud.” I appreciate the interest of the Chairman, the Ranking Member, and the other

members of the Subcommittee, in the Securities and Exchange Commission (SEC or

Commission) and the Office of Inspector General (OIG). In my testimony, I am

representing the OIG, and the views that I express are those of my Office, and do not

necessarily reflect the views of the Commission or any Commissioners.

       I would like to begin my remarks by briefly discussing the role of my Office and

the oversight efforts we have undertaken during the past few years. The mission of the

OIG is to promote the integrity, efficiency and effectiveness of the critical programs and

operations of the SEC. The SEC OIG includes the positions of the Inspector General,

Deputy Inspector General, Counsel to the Inspector General, and has staff in two major

areas: Audits and Investigations.

       Our audit unit conducts, coordinates and supervises independent audits and

evaluations related to the Commission’s internal programs and operations. The primary

purpose of conducting an audit is to review past events with a view toward ensuring

compliance with applicable laws, rules, and regulations and improving future

performance. Upon completion of an audit or evaluation, the OIG issues an independent

report that identifies any deficiencies in Commission operations, programs, activities, or

functions and makes recommendations for improvements in existing controls and

procedures.




                                             1
       The Office’s investigations unit responds to allegations of violations of statutes,

rules, and regulations, and other misconduct by Commission staff and contractors. We

carefully review and analyze the complaints we receive and, if warranted, conduct a

preliminary inquiry or full investigation into a matter. The misconduct investigated

ranges from fraud and other types of criminal conduct to violations of Commission rules

and policies and the Government-wide conduct standards. The investigations unit

conducts thorough and independent investigations in accordance with the applicable

Quality Standards for Investigations. Where allegations of criminal conduct are

involved, we notify and work with the Department of Justice and the Federal Bureau of

Investigation as appropriate.

                                      Audit Reports

       Over the past three years since I became the Inspector General of the SEC, our

audit unit has issued numerous reports involving matters critical to SEC programs and

operations and the investing public. These reports have included an examination of the

Commission’s oversight of Bear Stearns and the factors that led to its collapse, an audit

of the Division of Enforcement’s (Enforcement) practices related to naked short selling

complaints and referrals, a review of the SEC’s bounty program for whistleblowers, an

analysis of the SEC’s oversight of credit rating agencies, and audits of the SEC’s real

property and leasing procurement process, compliance with Homeland Security

Presidential Directive 12, and oversight of the Securities Investment Protection

Corporation’s activities. In addition, following the OIG’s investigative report related to

the Madoff Ponzi scheme described below, we performed three comprehensive reviews

providing the SEC with 69 specific and concrete recommendations to improve the




                                             2
operations of both Enforcement and the SEC’s Office of Compliance Inspections and

Examinations (OCIE).

                                   Investigative Reports

       The Office’s investigations unit has also conducted numerous comprehensive

investigations into significant failures by the SEC in accomplishing its regulatory

mission, as well as investigations of allegations of violations of statutes, rules, and

regulations, and other misconduct by Commission staff members and contractors.

Several of these investigations involved senior-level Commission staff and represent

matters of great concern to the Commission, Members of Congress, and the general

public. Where appropriate, we have reported evidence of improper conduct and made

recommendations for disciplinary actions, including removal of employees from the

federal service, as well as recommendations for improvements in agency policies,

procedures, and practices.

       Specifically, we have issued investigative reports regarding a myriad of

allegations, including claims of failures by Enforcement to pursue investigations

vigorously or in a timely manner, improper securities trading by Commission employees,

conflicts of interest by Commission staff members, post-employment violations,

unauthorized disclosure of nonpublic information, procurement violations, preferential

treatment given to prominent persons, retaliatory termination, perjury by supervisory

Commission attorneys, failure of SEC attorneys to maintain active bar status, falsification

of federal documents and compensatory time for travel, abusive conduct and the misuse

of official position and government resources.




                                              3
       As noted above, in August 2009, we issued a 457-page report of investigation

analyzing the reasons why the SEC failed to uncover Bernard Madoff’s $50 billion Ponzi

scheme. In March 2010, we issued a thorough and comprehensive report of investigation

regarding the history of the SEC’s examinations and investigations of Robert Allen

Stanford’s (Stanford) $8 billion alleged Ponzi scheme.

                 Commencement of the OIG’s Stanford Investigation

       On October 13, 2009, we opened an investigation into the handling of the SEC’s

investigation into Robert Allen Stanford and his various companies, including the history

and conduct of all the SEC’s investigations and examinations regarding Stanford.

Between October 13, 2009 and February 16, 2010, our investigative team made

numerous requests to the SEC’s Office of Information Technology (OIT) for the e-mails

of current and former SEC employees for various periods of time pertinent to the

investigation. The e-mails were received, loaded onto computers with specialized search

tools, and searched on a continuous basis throughout the course of our investigation.

       In all, OIT provided e-mails for a total of 42 current and former SEC employees

for various time periods pertinent to the investigation, ranging from 1997 to 2009. We

estimate that we obtained and searched over 2.7 million e-mails during the course of the

investigation.

       On October 27, 2009, we sent comprehensive document requests to both

Enforcement and OCIE specifying the documents and records we required to be produced

for the investigation. We carefully reviewed and analyzed the information we received as

a result of our document production requests. These documents included all records

relating to the Fort Worth examinations in 1997 of Stanford Group Company’s Broker-




                                            4
Dealer, in 1998 of Stanford Group Company’s Investment Advisor, in 2002 of Stanford

Group Company’s Investment Advisor, and in 2004 of Stanford Group Company’s

Broker-Dealer. These also included investigative records relating to the Fort Worth

Office’s 1998 inquiry regarding Stanford Group Company and its Enforcement

investigation of Stanford Group Company, which was opened in 2006.

       We also sought and reviewed documents from the Financial Industry Regulatory

Authority (FINRA), including documents concerning communications between FINRA

or its predecessor, the National Association of Securities Dealers (NASD), and the SEC

concerning Stanford, and FINRA documents concerning the SEC’s examinations and

inquiries regarding Stanford.

                                Testimony and Interviews

       The OIG conducted 51 testimonies and interviews of 48 individuals with

knowledge of facts or circumstances surrounding the SEC’s examinations and/or

investigations of Stanford and his firms. I personally led the questioning in the testimony

and interviews of all the witnesses in this investigation.

       Specifically, we conducted on-the-record and under oath testimony of 28

individuals, including all the relevant examiners and investigators who worked on SEC

matters relating to Stanford. We also conducted interviews of 20 other witnesses,

including former SEC employees, whistleblowers, victims of the alleged Ponzi scheme,

and officials from the Texas State Securities Board.

                  Issuance of Comprehensive Report of Investigation

       On March 31, 2010, we issued to the Chairman of the SEC a comprehensive

report of our investigation in the Stanford matter containing over 150 pages of analysis




                                              5
and 200 exhibits. The report of investigation detailed all of the SEC’s examinations and

investigations of Stanford from 1997 through 2009 and the agency’s response to all

complaints it received regarding the activities of Stanford’s companies, tracing the path

of these complaints through the Commission from their inception and reviewing what, if

any, investigative or examination work was conducted with respect to the allegations in

the complaints.

                      Results of the OIG’s Stanford Investigation

       The OIG’s investigation determined that the SEC’s Fort Worth Office was aware

since 1997 that Robert Allen Stanford was likely operating a Ponzi scheme, having come

to that conclusion a mere two years after Stanford Group Company, Stanford’s

investment adviser, registered with the SEC in 1995. We found that over the next eight

years, the SEC’s Fort Worth Examination group conducted four examinations of

Stanford’s operations, finding in each examination that the certificates of deposit (CDs)

Stanford was promoting could not have been “legitimate,” and that it was “highly

unlikely” that the returns Stanford claimed to generate could have been achieved with the

purported conservative investment approach utilized. The SEC’s Fort Worth examiners

conducted examinations of Stanford in 1997, 1998, 2002, and 2004, concluding in each

instance that Stanford’s CDs were likely a Ponzi scheme or similar fraudulent scheme.

The only significant difference in the examination group’s findings over the years was

that the potential fraud was growing exponentially, from $250 million to $1.5 billion.

       The first SEC examination occurred in 1997, just two years after Stanford Group

Company began operations. After reviewing Stanford Group Company’s annual audited

financial statements in 1997, SEC examiner Julie Preuitt, who is a witness in this hearing,




                                             6
stated that, based simply on her review of the financial statements, she “became very

concerned” about the “extraordinary revenue” from the CDs and immediately suspected

the CD sales were fraudulent. In August 1997, after just six days of field work in an

examination of Stanford, Ms. Preuitt and the examination team concluded that Stanford

International Bank’s statements promoting the CDs appeared to be misrepresentations.

They noted that while the CD products were promoted as being safe and secure, with

investments in “investment-grade bonds,” the interest rate, combined with referral fees of

between 11% and 13.75% annually, was simply too high to be achieved through the

purported low-risk investments.

       Ms. Preuitt concluded after the 1997 examination was finished that the CDs’

declared above-market returns were “absolutely ludicrous,” and that the high referral fees

paid for selling the CDs indicated that they were not “legitimate CDs.” The Assistant

District Administrator for the Fort Worth Examination program concurred, noting that

there were “red flags” about Stanford’s operations that caused her to believe Stanford

Group Company was operating a Ponzi scheme, specifically noting the fact that the

interest being paid on these CDs “was significantly higher than what you could get on a

CD in the United States.” She further concluded that it was “highly unlikely” that the

returns Stanford claimed to generate could be achieved with the conservative investment

approach Stanford claimed to be using.

       In the SEC’s internal tracking database for examinations, the Fort Worth Broker-

Dealer Examination group characterized its conclusion from the 1997 examination of

Stanford Group Company as “Possible misrepresentations. Possible Ponzi scheme.” We

found in our investigation that the Examination staff determined in 1997, as a result of




                                             7
their findings, that an investigation of Stanford by the Enforcement group was warranted,

and referred a copy of their examination report to the Enforcement group for review and

disposition. In fact, when the former Assistant District Administrator for the Fort Worth

Examination program retired in 1997, her “parting words” to Ms. Preuitt were to “keep

your eye on these people [referring to Stanford] because this looks like a Ponzi scheme to

me and some day it’s going to blow up.”

       We also found that in June 1998, the Investment Adviser Examination group in

Fort Worth began another examination of Stanford Group Company. This investment

adviser examination came to the same conclusions as the broker-dealer examination,

finding very suspicious Stanford’s “extremely high interest rates and extremely generous

compensation” in the form of annual recurring referral fees, and the fact that Stanford

Group Company was so “extremely dependent upon that compensation to conduct its

day-to-day operations.”

       In November 2002, the Investment Adviser Examination group conducted yet

another examination of Stanford Group Company. In this examination, the staff

identified the same red flags that had been noted in the previous two examinations,

including the fact that “the consistent, above-market reported returns” were “very

unlikely” to be able to be achieved with Stanford’s investments.

       The investment adviser examiners also found that the list of investors provided by

Stanford Group Company was inaccurate, as the list they received of the CD holders did

not match up with the total CDs outstanding based upon referral fees. The examiners

noted that although they did follow up with Stanford Group Company about this

discrepancy, they never obtained “a satisfactory response, and a full list of investors.”




                                              8
        After the examiners began this third examination of Stanford, the SEC received

multiple complaints from outside entities reinforcing and bolstering the examiners’

suspicions about Stanford’s operations. However, the SEC failed to follow up on these

complaints or take any action to investigate them. On December 5, 2002, the SEC

received a complaint from a citizen of Mexico, who raised the same concerns the

Examination staff had raised. While the examiners characterized the concerns expressed

in this complaint as “legitimate,” we found that the SEC did not respond to the complaint

and did not take any action to investigate the claims in the complaint.

        In 2003, the SEC Enforcement staff received two new complaints that Stanford

was a Ponzi scheme, but we found that nothing was done to pursue either of them. On

August 4, 2003, the SEC was forwarded a letter that discussed several similarities

between a known Ponzi scheme and Stanford’s operations. Then, on October 10, 2003,

the NASD forwarded a letter dated September 1, 2003, from an anonymous Stanford

insider to the SEC’s Office of Investor Education and Assistance (OIEA), which stated,

in pertinent part:

                STANFORD FINANCIAL IS THE SUBJECT OF A
                LINGERING CORPORATE FRAUD SCANDAL
                PERPETUATED AS A “MASSIVE PONZI SCHEME”
                THAT WILL DESTROY THE LIFE SAVINGS OF
                MANY; DAMAGE THE REPUTATION OF ALL
                ASSOCIATED PARTIES, RIDICULE SECURITIES
                AND BANKING AUTHORITIES, AND SHAME THE
                UNITED STATES OF AMERICA.

        Our investigation found that while this letter was minimally reviewed by various

Enforcement staff, the Enforcement group decided not to open an investigation or even

an inquiry. The Enforcement branch chief responsible for the decision explained his

rationale as follows:



                                             9
               [R]ather than spend a lot of resources on something that
               could end up being something that we could not bring, the
               decision was made to – to not go forward at that time, or at
               least to – to not spend the significant resources and – and
               wait and see if something else would come up.

       In October 2004, the Examination staff conducted its fourth examination of

Stanford Group Company. The examiners once again analyzed the CD returns using data

about the past performance of the equity markets and concluded that Stanford Group

Company’s sales of the CDs violated numerous federal securities laws.

       While the Fort Worth Examination group, and particularly Ms. Preuitt, made

multiple efforts after each examination to convince the Enforcement group to open and

conduct an investigation of Stanford, we found that no meaningful effort was made by

the Enforcement group to investigate the potential fraud until late 2005. In 1998, the

Enforcement group opened a brief inquiry, but then closed it after only three months,

when Stanford failed to produce documents evidencing fraud in response to a voluntary

document request. In 2002, no investigation was opened even after the examiners

specifically identified in an examination report multiple violations of securities laws by

Stanford. In 2003, after receiving the three separate complaints about Stanford’s

operations, the Enforcement group decided not to open up an investigation or even an

inquiry, and did not follow up to obtain more information about the complaints.

       In late 2005, after a change in leadership in the Enforcement group and in

response to the continuing pleas by Ms. Preuitt and the Fort Worth Examination group,

who had been watching the potential fraud grow in examination after examination, the

Enforcement group finally agreed to seek a formal order from the Commission to

investigate Stanford. However, even at that time, the Enforcement group missed an




                                             10
opportunity to bring an action against Stanford Group Company for its admitted failure to

conduct any due diligence regarding Stanford’s investment portfolio, which could have

potentially completely stopped the sales of the Stanford International Bank CDs through

the Stanford Group Company investment adviser, and would have provided investors and

prospective investors with notice that the SEC considered Stanford Group Company’s

sales of the CDs to be fraudulent. We found that this particular action was not

considered, partially because the new head of the Enforcement group in Fort Worth was

not aware of the findings in the investment advisers’ examinations in 1998 and 2002, or

even that Stanford Group Company had registered as an investment adviser, a fact she

learned for the first time in the course of our investigation in January 2010.

       We did not find that the reluctance on the part of the SEC’s Fort Worth

Enforcement group to investigate Stanford was related to any improper professional,

social, or financial relationship on the part of any current or former SEC employee. We

found evidence, however, that SEC-wide institutional influence within the Enforcement

group did factor into its repeated decisions not to undertake a full and thorough

investigation of Stanford, notwithstanding staff awareness that the potential fraud was

growing. We found that senior Fort Worth officials perceived that they were being

judged on the numbers of cases they brought, so-called “stats,” and communicated to the

Enforcement staff that novel or complex cases were disfavored. Specific testimonial

evidence obtained in our investigation showed that, as a result of this emphasis on “stats,”

cases that were not considered “quick-hit” or slam-dunk” cases were discouraged. The

OIG investigation concluded that because Stanford “was not going to be a quick hit,” it

was not considered to be as high a priority as other, easier cases.




                                             11
       The OIG also found that the former head of Enforcement in Fort Worth who

played a significant role in multiple decisions over the years to quash investigations of

Stanford, sought to represent Stanford on three separate occasions after he left the

Commission, and in fact, represented Stanford briefly in 2006 before he was informed by

the SEC Ethics Office that it was improper for him to do so.

       This individual while working at the SEC was responsible for decisions: (1) in

1998 to close an inquiry opened regarding Stanford after the 1997 examination; (2) in

2002, in lieu of responding to a complaint or investigating the issues it raised, to forward

it to the Texas State Securities Board; (3) also in 2002, not to act on the Examination

staff’s referral of Stanford for investigation after its investment adviser examination; (4)

in 2003, not to investigate Stanford after a complaint was received comparing Stanford’s

operations to a known fraud; (5) in 2003, not to investigate Stanford after receiving a

complaint from an anonymous insider alleging that Stanford was engaged in a “massive

Ponzi scheme;” and (6) in 2005, to bluntly inform senior Examination staff after a

presentation was made on Stanford at a quarterly summit meeting that Stanford was not a

matter the Enforcement group planned to investigate.

       Yet, in June 2005, a mere two months after leaving the SEC, this former head of

the Enforcement group in Fort Worth e-mailed the SEC Ethics Office that he had been

“approached about representing [Stanford] . . . in connection with (what appears to be) a

preliminary inquiry by the Fort Worth office.” He further stated, “I am not aware of any

conflicts and I do not remember any matters pending on Stanford while I was at the

Commission.”




                                             12
       After the SEC Ethics Office denied the former head of Enforcement in Fort

Worth’s June 2005 request, in September 2006, Stanford retained this individual to assist

with inquiries Stanford was receiving from regulatory authorities, including the SEC.

The former head of Enforcement in Fort Worth met with Stanford Financial Group’s

General Counsel in Stanford’s Miami office and billed Stanford for his time on this

representation. In late November 2006, he called his former subordinate, the Assistant

Director working on the Stanford matter in Fort Worth, who asked him during the

conversation, “[C]an you work on this?” and in fact told him, “I’m not sure you’re able to

work on this.” After this call, the former head of Enforcement in Fort Worth belatedly

sought permission from the SEC’s Ethics Office to represent Stanford. The SEC Ethics

Office replied that he could not represent Stanford for the same reasons given a year

earlier, and he discontinued his representation.


       In February 2009, immediately after the SEC sued Stanford, this same former

head of Enforcement in Fort Worth contacted the SEC Ethics Office a third time about

representing Stanford in connection with the SEC matter – this time to defend Stanford

against the lawsuit filed by the SEC. An SEC Ethics official testified that he could not

recall another occasion on which a former SEC employee contacted the Ethics Office on

three separate occasions trying to represent a client in the same matter. After the SEC

Ethics Office informed the former head of Enforcement in Fort Worth for a third time

that he could not represent Stanford, he became upset with the decision, arguing that the

matter pending in 2009 “was new and was different and unrelated to the matter that had

occurred before he left.” When asked during our investigation why he was so insistent on




                                             13
representing Stanford, he replied, “Every lawyer in Texas and beyond is going to get rich

over this case. Okay? And I hated being on the sidelines.”


        Thus, our investigation found that the former head of Enforcement in Fort

Worth’s representation of Stanford appeared to violate state bar rules that prohibit a

former government employee from working on matters in which that individual

participated as a government employee.

              Recommendations of the OIG’s Stanford Report of Investigation

        We provided our Report of Investigation on Stanford to the Chairman of the SEC

with the recommendation that the Chairman carefully review its findings and share with

Enforcement management the portions of the report that related to the performance

failures by those employees who still work at the SEC, so that appropriate action (which

may include performance-based action, if applicable) would be taken, on an employee-

by-employee basis, to ensure that future decisions about when to open an investigation

and when to recommend that the Commission take action are made in a more appropriate

and timely manner.

        We also made numerous recommendations to improve the operations of several

divisions and offices within the SEC. Specifically, we recommended that:

        (1)       Enforcement ensure that the potential harm to investors if no action is

taken is considered as a factor when deciding whether to bring an Enforcement action,

including consideration of whether this factor, in certain situations, outweighs other

factors such as litigation risk;




                                               14
       (2)     Enforcement emphasize the significance of bringing cases that are

difficult, but important to the protection of investors, in evaluating the performance of an

Enforcement staff member or a regional office;

       (3)     Enforcement consider the significance of the presence or absence of

United States investors in determining whether to open an investigation or bring an

enforcement action that otherwise meets jurisdictional requirements;

       (4)     there be improved coordination between the Enforcement and OCIE on

investigations, particularly those investigations initiated by an OCIE referral to

Enforcement;

       (5)     Enforcement re-evaluate the factors utilized to determine when referral of

a matter to state securities regulators, in lieu of an SEC investigation, is appropriate;

       (6)     there be additional training of Enforcement staff to strengthen their

understanding of the laws governing broker-dealers and investment advisers; and

       (7)     Enforcement emphasize the need to coordinate with the Office of

International Affairs and the Division of Risk, Strategy, and Financial Innovation, as

appropriate, early in the course of investigations.

       We also referred our Report of Investigation to the Commission’s Ethics Counsel

for referral to the Bar Counsel offices in the two states in which the former head of

Enforcement in Fort Worth was admitted to practice law.

                     OIG Follow-up Efforts and Subsequent Audit

       We have followed up with Enforcement and OCIE regarding the

recommendations to improve operations that we made in our Stanford report. All of

these recommendations have been implemented and closed to our satisfaction.




                                              15
       In addition, in response to the request of former Chairman of the Senate Banking

Committee, the Honorable Christopher Dodd (D - Connecticut), we recently completed

an audit of the process by which OCIE refers examination results to Enforcement in all of

the SEC’s regional offices to determine if the concerns about the Fort Worth Regional

Office found in the Stanford report also existed in other SEC regional offices.

       Our audit found that examiners across the SEC regional offices are generally

satisfied with their Enforcement attorney counterparts. For example, we found through a

survey of all OCIE examiners throughout the SEC’s regional offices that most survey

respondents indicated that they are either “completely satisfied” or “somewhat satisfied”

with actions taken by Enforcement in response to examination-related referrals. We

further found that where there was dissatisfaction with the referral process, the level of

concern dramatically dropped over time and particularly in fiscal year 2010, with some

respondents identifying the newly-created Asset Management Unit in Enforcement as

having significantly assisted with the acceptance rate of OCIE referrals. We also found

that the large majority of examiners do not believe that Enforcement will only take

referrals that involve high dollar value amounts and cases that can easily be brought

against the violator. In addition, many of the survey participants who indicated that they

did believe that Enforcement was particularly concerned with dollar thresholds or “stats”

noted that this approach was more evident in the past, i.e., “prior to Madoff.”

       Our audit did find that certain aspects of the referral process that could be

improved. We found that OCIE sometimes presented referrals informally to Enforcement

prior to proceeding with the formal referral process. As a result, there was a concern that

not all referral-worthy matters may be recorded and tracked. We also found that internal




                                             16
concerns over incentives and metrics with regard to the percentage of OCIE referrals

being accepted by Enforcement may have led OCIE senior officials to request that a

particular referral not be recorded in the Tips, Complaints, and Referrals (TCR) system to

avoid the risk of having large numbers of outstanding referrals. Additionally, we noted

that the level of communication between OCIE and Enforcement after a referral is not

always consistent in the regional offices. We made seven additional recommendations to

address the areas of improvement identified and are currently following up to ensure that

these recommendations are implemented.

             Results of an Investigation of Retaliatory Personnel Actions

       In September 2009, we completed another investigation involving the SEC’s Fort

Worth office and Ms. Preuitt. In this investigation, we found that Ms. Preuitt and a

former colleague in the SEC’s Fort Worth office voiced their differences about

programmatic issues at a planning meeting concerning management’s initiative to begin

conducting a certain type of examination. Shortly thereafter, Ms. Preuitt’s supervisor

called her into several meetings and admonished Ms. Preuitt for her opposition to the

office’s examination initiative. A few months later, Ms. Preuitt’s supervisor issued her a

letter of reprimand for, among other things, her efforts to undermine management’s

authority and frustrate the implementation of the new examination initiative. Shortly

thereafter, Ms. Preuitt was involuntarily transferred to non-supervisory duties.

       Ms. Preuitt’s former colleague, who also voiced opposition to the new

examination initiative, complained to senior management at SEC headquarters about the

new initiative and about the treatment of Ms. Preuitt. Shortly after he sent his complaint,

he was issued a performance counseling memorandum for, among other things, being




                                            17
openly adversarial toward key examination goals. Less than a month later, the colleague

was issued a letter of reprimand, for, among other things, discussing purported

“unfounded and inaccurate allegations” with SEC senior management.

        Our investigation concluded that the complaints made both by Ms. Preuitt and her

colleague improperly led to actions being taken against them. We found that it was

improper for Fort Worth management to take action against employees for voicing

opposition to a program initiative and for bringing complaints to senior SEC

management. Based upon our investigative findings, we recommended the consideration

of performance-based or disciplinary action against two Fort Worth senior management

officials.

                                       Conclusion

        In conclusion, I appreciate the interest of the Chairman, the Ranking Member, and

the Subcommittee in the SEC and my Office and, in particular, in the facts and

circumstances pertinent to our Stanford report. I believe that the Subcommittee’s and

Congress’s continued involvement with the SEC is helpful to strengthen the

accountability and effectiveness of the Commission. Thank you.




                                           18
